                            Department of the Interior
                            Office of Inspector General




               AUDIT REPORT



                U.S. Fish and Wildlife Service
              Wildlife and Sport Fish Restoration
               Program Grants Awarded to the
                     State of New Mexico,
                Department of Game and Fish,
           From July 1, 2005, Through June 30, 2007




Report No. R-GR-FWS-0011-2008                March 2009
               United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                     Reston, VA 20191

                                                                                  March 10, 2009

                                      AUDIT REPORT
Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Suzanna I. Park
               Director of External Audits

Subject:       Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration
               Program Grants Awarded to the State of New Mexico, Department of Game and
               Fish, From July 1, 2005, Through June 30, 2007 (No. R-GR-FWS-0011-2008)

        This report presents the results of our audit of costs incurred by the State of New Mexico
(State), Department of Game and Fish (Department), under grants awarded by the U.S. Fish and
Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and Sport Fish
Restoration Program (Program). The audit included claims totaling approximately $31.8 million
on 52 grants that were open during State fiscal years (SFYs) ended June 30 of 2006 and 2007
(see Appendix 1). The audit also covered Department compliance with applicable laws,
regulations, and FWS guidelines, including those related to the collection and use of hunting and
fishing license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we identified $198,464 in questioned costs. The questioned
costs resulted from lack of support for the value of volunteer instructor hours claimed as the
required State matching share of grant costs. We also found that information in the
Department’s land records was not reconciled with information in records maintained by FWS.

      We provided a draft report to FWS for a response. We summarized Department and
FWS Region 2 responses after each recommendation, as well as our comments on the responses.
FWS considers recommendations A.1, A.2 and B.1 implemented based on their review of
documentation and the Department’s response. We list the status of each recommendation in
Appendix 3.
        Please respond in writing to the findings and recommendations included in this report by
June 8, 2009. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the audit team leader,
W. S. Streifel, or me at 703–487–5345.

cc:   Regional Director, Region 2, U.S. Fish and Wildlife Service




                                                 2
                                               Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling approximately $31.8 million on the 52 grants that were
open during State fiscal years (SFYs) 2006 and 2007 ended June 30 (see Appendix 1). We
report only on those conditions that existed during this audit period. We performed our audit at
Department Headquarters office in Santa Fe, NM, and visited two area offices, three wildlife
management areas, two hatcheries and one motor boat access (see Appendix 2). We performed
this audit to supplement, not replace, the audits required by the Single Audit Act Amendments of
1996 and by Office of Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.

                                                          3
as necessary under the circumstances. To the extent possible, we relied on the work of the
certified public accounting firm who conducted the annual audits of the Department and which
helped to avoid duplication of audit effort. We believe that the evidence obtained from our tests
and procedures and the work of other auditors provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       administration of the Department; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Department operations.

Prior Audit Coverage
On September 2, 2005, we issued “Final Audit Report on the U.S. Fish and Wildlife Service
Federal Assistance Grants Administered by the State of New Mexico, Department of Game and
Fish from July 1, 2002, through June 30, 2004” (No. R-GR-FWS-0001-2005). We followed up
on all recommendations in the report and found that U. S. Department of the Interior, Office of
the Assistant Secretary for Policy, Management and Budget (PMB) considers recommendations
A.1 and A.2 resolved but not implemented. We did not identify any conditions during our
current audit that warrant repeating the findings from the prior audit or repeating the open
recommendations, but we note that PMB cannot classify recommendations as resolved and
implemented (i.e., closed) until they receive adequate documentation supporting that
classification.


                                                4
In addition, we reviewed Single Audit Reports of the New Mexico Department of Game and Fish
for SFYs 2006 and 2007 and determined that the Department’s Wildlife and Sport Fish
Restoration Program was not selected for review and no findings related to the Department’s
administration of the Program.




                                            5
                                    Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified two
conditions that resulted in the findings listed below, including questioned costs totaling
$198,464. We discuss the findings in more detail in the Findings and Recommendations Section.

       •   Questioned Costs. The Department’s Hunter Education primary instructor did not
           require volunteer instructors to certify the hours they donated to the Department, the
           value of which the Department claimed to meet, in part, its required State matching
           share of grant costs.

       •   Inadequate Land Management Control. The Department did not reconcile
           information in its land records with information in records maintained by FWS.

Findings and Recommendations
A.     Questioned Costs — $198,464

       Under the Program, States must use “State matching” (non-federal) funds to cover at least
       25 percent of costs incurred in performing projects under the grants. The State’s
       matching share of costs on its Hunter Education grants was partially composed of non-
       cash (“in-kind”) contributions. The contributions consisted of the value of volunteer
       instructor hours. For Hunter Education grants W-120-S-34 and W-120-S-35, the
       Department had inadequate documentation to support the volunteer hours claimed. Each
       instructor should have, but did not, certify his or her time worked. Instead, the
       Department used as support a report that was prepared by its primary instructors and
       which summarized volunteer hours.

       The Code of Federal Regulations (2 C.F.R. § 225.55, Appendix A, C.1.j), which outlines
       basic guidelines on cost principles, states that for a cost to be allowable under federal
       awards, the cost must be adequately documented. In addition, 43 C.F.R. § 12.64(b)(6),
       which outlines requirements for matching or cost sharing records, states that, to the extent
       feasible, volunteer services will be supported by the same methods that the organization
       uses to support the allocation of regular personnel costs. The Department also has
       responsibility for the accuracy and completeness of its reports.

       Although the primary instructors certified their own hours in the summary reports
       submitted to the Department, the volunteer instructor hours were not certified because the
       Department’s primary instructors did not require subordinate volunteer instructors to
       certify their time. Department management presumed that the summary reports were
       adequate since the reports had never been examined and questioned in the past.

                                                6
The Department claimed in-kind contributions totaling $421,560 as matching costs for
Hunter Education Grants ($282,186 for grant W-120-S-34 and $139,374 for grant
W-120-S-35.) We could not determine the allowable hours because the primary
instructor’s hours were co-mingled with the volunteer instructor hours in the summary
report. To determine the amount of questioned costs for each grant, we:

   •   reduced the total grant outlays claimed by the amount of unsupported in-kind
       contributions;

   •   calculated the allowable federal share of grant costs by taking 75 percent of the
       revised grant outlays; and

   •   subtracted the revised allowable federal share from the original federal share
       claimed.

Based on our calculations, we are questioning $198,464 of grant reimbursements
($176,645 for Grant W-120-S-34 and $21,819 for Grant W-120-S-35).

Recommendations

We recommend that FWS:

1. resolve the $198,464 of questioned costs and

2. require the Department to establish and implement procedures requiring volunteer
   instructors to certify their hours worked.

Department Response

Department officials provided additional support to FWS Region 2 officials for the in-
kind amounts claimed, and developed documentation to ensure that instructor hours used
to calculate the value of the in-kind contributions met the non-federal matching
requirement.

FWS Response

FWS Regional officials concurred with the recommendations and actions taken by the
Department. Based on information presented for the In-Kind Contributions, FWS
determined that the Department met the non-federal matching requirement.

OIG Comments

Based on the Department and FWS responses and actions taken, we consider
recommendations A.1 and A.2 resolved and implemented. No further action is necessary.



                                        7
B.   Inadequate Land Management Control

     Grantees are responsible for ensuring that lands acquired with Program grant funds are
     used for the purposes for which they were acquired. To meet these requirements, the
     Department must ensure its database of real property is accurate and reconciles with land
     records maintained by FWS. However, the Department had not reconciled its land
     records with those maintained by FWS.

     Federal regulations (43 C.F.R. § 12.60(b)(3) and 50 C.F.R. § 80.18(c)) require that
     grantees adequately safeguard all property and ensure it is used only for the purposes for
     which it was acquired. In addition, FWS reiterated land records management
     requirements to Program participants in a March 29, 2007 letter. The letter requested that
     States ensure that they have a comprehensive inventory. The letter also requested that
     States assess whether field managers and realty staff had specific knowledge and a
     monitoring system to ensure lands purchased with federal funds were used for originally
     intended purposes.

     The Department lacks routine procedures to reconcile its real property inventory data
     with data maintained by FWS. Personnel at the FWS regional office also stated that they
     needed the Department’s official list of real property acquired with Program grant funds.
     Without accurate records the Department cannot ensure accountability and control of
     land purchased with Program grant funds.

     Recommendations

     We recommend that FWS ensure the Department:

     1. provides FWS with its official list of real property acquired with Program grant funds,
        and

     2. reconciles its land records with records maintained by FWS and establishes
        procedures to periodically reconcile its land records with FWS records.

     Department Response

     The Department stated that it is working with FWS to reconcile its land records.

     FWS Response

     FWS Regional officials concurred with the recommendations, stated that the
     Department’s land records have been provided, and are in the process of reconciliation.

     OIG Comments

     Based on the Department and FWS responses, we consider recommendation B.1 resolved
     and implemented. No further action is necessary.

                                             8
Recommendation B.2 is considered resolved, but not implemented. While FWS regional
management concurred with the recommendation, additional information is needed in the
corrective action plan including:

       •   the specific actions taken or planned to address the recommendation;

       •   targeted completion dates;

       •   titles of officials responsible for the specific actions taken or planned; and

       •   verification that FWS headquarters officials reviewed and approved of actions
           taken or planned by the Department.




                                         9
                                                                   Appendix 1
                                                                     Page 1 of 2


              NEW M EXICO DEPARTMENT OF G AME AND F ISH
               F INANCIAL SUMMARY OF R EVIEW C OVERAGE
                   JULY 1, 2005, THROUGH JUNE 30, 2007

                                                       Questioned Costs
Grant Number     Grant Amount      Claimed Costs        (Federal Share)
                                                     Unsupported    Total
F-55-DL-20              $676,500          $676,193
F-55-DL-21               566,500           578,091
F-57-E-17                284,533           282,461
F-57-E-18                283,164           329,353
F-66-M-4               5,221,027         7,064,538
F-66-M-5               1,290,000         2,253,639
F-67-R-4                 131,666           148,069
F-68-R-4                 471,834           483,409
F-69-R-4                 440,000           517,375
F-70-M-4                 700,000           967,641
F-71-B-1               3,200,000         1,206,180
F-74-D-1               1,200,000         1,584,839
F-75-D-1               2,666,667           179,586
F-76-M-1                 230,000           347,940
F-77-M-1                  79,000            52,030
F-78-R-1                 105,000            11,103
F-79-R-1                  34,512            12,184
F-80-R-1                 102,500            46,419
F-81-M-1                 192,000           123,219
F-82-M-1                  55,000            19,074
F-83-R-1                 135,000            46,891
F-84-R-1                 100,000           154,375
F-85-P-1                  75,000             8,942
FW-14-C-64               229,000           269,599
FW-14-C-65                81,833            68,830
FW-14-C-66               307,500           306,490
FW-17-R-33               494,000           513,432
FW-17-RD-34              504,000           473,739
FW-24-TG-20              590,104           575,157
FW-24-TG-21              720,500           690,001
FW-26-DL-14              841,250         1,138,853
                                    10
                                                                     Appendix 1
                                                                       Page 2 of 2


              NEW M EXICO DEPARTMENT OF G AME AND F ISH
               F INANCIAL SUMMARY OF R EVIEW C OVERAGE
                   JULY 1, 2005, THROUGH JUNE 30, 2007

                                                         Questioned Costs
Grant Number     Grant Amount      Claimed Costs          (Federal Share)
                                                       Unsupported     Total
FW-26-DL-15            1,223,440           1,331,409
W-120-S-34             1,128,743           1,175,403       $176,645 $176,645
W-120-S-35               557,495             667,776         21,819   21,819
W-137-R-6                 39,000              35,729
W-137-R-7                 39,000              51,912
W-138-R-4                216,500             183,225
W-138-R-5                154,500              79,878
W-139-R-4                161,000             165,076
W-139-R-5                218,000             160,917
W-140-R-4                103,000              18,869
W-140-R-5                100,500              51,743
W-141-R-2                195,200             149,796
W-141-R-3                 48,000                   -
W-143-R-1                 35,350               9,295
W-143-R-2                 32,650              23,370
W-144-R-1                 75,384              81,963
W-144-R-2                 50,384              53,227
W-93-R-47              2,868,000           2,603,786
W-93-R-48              2,887,997           2,379,509
W-99-D-46                785,112             685,505
W-99-D-47                720,760             712,045
   Totals            $33,648,105         $31,750,085       $198,464 $198,464




                                    11
                                                           Appendix 2


    NEW M EXICO DEPARTMENT OF G AME AND F ISH
                  SITES VISITED

         Department of Game and Fish Headquarters

                    Santa Fe, New Mexico


         Department of Game and Fish Area Offices

                   NW Area - Albuquerque
                     SE Area - Roswell


Wildlife Management Areas, Hatcheries, and Motor Boat Access

                     Los Ojos Hatchery
                       Los Ojos WMA
                      Rio Chama WMA
                  Santa Rosa Fish Hatchery
                       Sargent WMA
                  Ute Lake State Park MBA




                            12
                                                                                    Appendix 3

                     NEW M EXICO DEPARTMENT OF G AME AND F ISH
             STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


Recommendations                    Status                          Action Required

A.1, A.2, and B.1.      Resolved and implemented.       FWS concurs with the findings and
                                                        recommendations and corrective actions
                                                        have been implemented. No further
                                                        action is required.

B.2                     FWS management concurs          Additional information is needed in the
                        with the recommendation,        corrective action plan, including the
                        but additional information is   specific actions taken or planned to
                        needed, as outlined in the      address the recommendation, targeted
                        “Actions required” column.      completion date(s), titles of officials
                                                        responsible for the specific actions taken
                                                        or planned, and verification that FWS
                                                        headquarters officials reviewed and
                                                        approved of action(s) taken or planned
                                                        by the State. We will refer the
                                                        recommendation not resolved and/or
                                                        implemented at the end of 90 days (after
                                                        June 8, 2009) to the Assistant Secretary
                                                        for Policy, Management and Budget for
                                                        resolution and/or tracking of
                                                        implementation.




                                               13
  Report Fraud, Waste, Abuse ,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone:Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free            800-424-5081
                  Washington Metro Area        703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
